TN
@OCKLE

2311 Douglas Street :
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-107
CEDAR POINT NURSERY and
FOWLER PACKING CO.,
Petitioners,
Vv.

VICTORIA HASSID, in her official capacity as
Chair of the Agricultural Labor Relations Board, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF PROPERTY LAW PROFESSORS IN SUPPORT OF RESPONDENTS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 7981 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 11th day of February, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chi,
A RENEE J. GOSS 9. ( Ludta— ‘

My Comm. Exp. September 5, 2023 _
Notary Public Affiant 40630
